U.S. DEPARTMENT OF LABOR

 District of Columbia Workmen’s
         Compensation Act
            Special Fund

FINANCIAL STATEMENT AUDIT

       September 30, 2003




                            U.S. Department of Labor
                            Office of Inspector General
                            Report Number: 22-04-008-04-432
                            Date Issued: March 30, 2004
                                                  TABLE OF CONTENTS & ACRONYMS


                                           CONTENTS

                                                                             PAGE

ACRONYMS                                                                        ii

ASSISTANT INSPECTOR GENERAL’S REPORT                                           1.1

DISTRICT OF COLUMBIA WORKMEN’S COMPENSATION ACT
SPECIAL FUND FINANCIAL STATEMENTS                                              2.1

 MANAGEMENT DISCUSSION AND ANALYSIS                                            2.4

   Mission and Organizational Structure                                        2.5

   Financial Highlights                                                        2.5

   Performance Goals and Results                                               2.5

   Limitations of the Financial Statements                                     2.6

 PRINCIPAL FINANCIAL STATEMENTS                                                2.7

   Balance Sheets                                                              2.8

   Statements of Net Cost                                                      2.9

   Statements of Changes in Net Position                                      2.10

   Statements of Budgetary Resources                                          2.11

   Statements of Financing                                                    2.12

   Notes to Financial Statements                                              2.13




OIG Report No. 22-04-008-04-432                                     Page i
                                                      TABLE OF CONTENTS & ACRONYMS


                                        ACRONYMS


CFO           Chief Financial Officer

DCCA          District of Columbia Workmen’s Compensation Act Special Fund

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

ESA           Employment Standards Administration

FASAB         Federal Accounting Standards Advisory Board

FMFIA         Federal Managers' Financial Integrity Act

FY            Fiscal Year

OMB           Office of Management and Budget




OIG Report No. 22-04-008-04-432                                              Page ii
U.S. Department of Labor      Office of Inspector General
                              Washington, D.C. 20210



                       ASSISTANT INSPECTOR GENERAL’S REPORT
MS. VICTORIA LIPNIC                                     We conducted our audit in accordance
ASSISTANT SECRETARY FOR                                 with auditing standards generally accepted
EMPLOYMENT STANDARDS                                    in the United States of America; the
U.S. DEPARTMENT OF LABOR                                standards applicable to financial
                                                        statements contained in Government
The Chief Financial Officers Act of 1990                Auditing Standards, issued by the
(CFO Act) requires agencies to report                   Comptroller General of the United States;
annually to Congress on their financial                 and Office of Management and Budget
status and any other information needed                 (OMB) Bulletin No. 01-02, Audit
to fairly present the agencies’ financial               Requirements for Federal Financial
position and results of operations. The                 Statements.
District of Columbia Workmen’s
Compensation Act Special Fund (the                      These standards require that we plan and
Fund) is included in the United States                  perform the audit to obtain reasonable
Department of Labor (DOL) annual                        assurance about whether the financial
financial statements issued to meet the                 statements are free of material
CFO Act reporting requirements.                         misstatements. An audit includes
                                                        examining, on a test basis, evidence
The objective s of our audit is to express              supporting the amounts and disclosures in
an opinion on the fair presentation of the              the financial statements. An audit also
Fund’s Fiscal Year 2003 and 2002                        includes assessing the accounting
financial statements, obtain an                         principles used and significant estimates
understanding of the Fund’s internal                    made by management, as well as
control, and test compliance with laws and              evaluating the overall financial statement
regulations that could have a material                  presentation. We believe that our audit
effect on the financial statements.                     provides a reasonable basis for our
                                                        opinion.
We have audited the balance sheet of the
Fund as of September 30, 2003 and 2002,                 OPINION ON
and the statements of net cost, changes in              FINANCIAL STATEMENTS
net position, budgetary resources, and
financing for the years then ended.                     In our opinion, the financial statements
                                                        referred to above present fairly, in all
These financial statements are the                      material respects, in conformity with
responsibility of the Fund’s management.                accounting principles generally accepted
Our responsibility is to express an opinion             in the United States of America:
on these financial statements based on our
audit.

OIG Report No. 22-04-008-04-432                                                        Page 1.1
                                      ASSISTANT INSPECTOR GENERAL’S REPORT

• the assets, liabilities, and net position   expressing our opinion on the financial
of the Fund as of September 30, 2003 and      statements. We limited our internal
2002; and                                     control testing to those controls necessary
                                              to achieve the objectives described in
• the net cost, changes in net position,      OMB Bulletin No. 01-02. We did not test
budgetary resources, and reconciliation of    all internal controls relevant to operating
net cost to budgetary resources for the       objectives as broadly defined by the
years ended September 30, 2003 and 2002.      Federal Managers’ Financial Integrity Act
                                              of 1982 (FMFIA), such as those controls
OTHER ACCOMPANYING                            relevant to ensuring efficient operations.
INFORMATION                                   The objective of our audit was not to
                                              provide assurance on internal control.
Our audit was conducted for the purpose       Consequently, we do not provide an
of forming an opinion on the Fund’s           opinion on internal control.
principal financial statements taken as a
whole. The information contained in the       Our consideration of the internal control
Management Discussion and Analysis            over financial reporting would not
section of the Fund’s annual financial        necessarily disclose all matters in the
statements is not a required part of the      internal control over financial reporting
principal financial statements. The           that might be reportable conditions.
information is required by the Federal        Under standards issued by the American
accounting Standards Advisory Board           Institute of Certified Public Accountants,
(FASAB).                                      reportable conditions are matters coming
                                              to our attention relating to significant
We have applied certain limited               deficiencies in the design or operation of
procedures, which consisted principally of    the internal control that, in our judgment,
inquiries of management regarding the         could adversely affect the agency’s ability
methods of measurement and presentation       to record, process, summarize, and report
of the information. However, we did not       financial data consistent with the
audit the information and express no          assertions by management in the financial
opinion on it.                                statements. Material weaknesses are
                                              reportable conditions in which the design
REPORT ON                                     or operation of one or more of the internal
INTERNAL CONTROL                              control components does not reduce to a
                                              relatively low level the risk that
In planning and performing our audit, we      misstatements in amounts that would be
considered the Fund’s internal control        material in relation to the financial
over financial reporting by obtaining an      statements being audited may occur and
understanding of the Fund’s internal          not be detected within a timely period by
control, determined whether these internal    employees in the normal course of
controls had been placed in operation,        performing their assigned functions.
assessed control risk, and performed tests    Because of inherent limitations in internal
of controls in order to determine our         controls, misstatements, losses, or
auditing procedures for the purpose of        noncompliance may nevertheless occur

OIG Report No. 22-04-008-04-432                                               Page 1.2
                                      ASSISTANT INSPECTOR GENERAL’S REPORT
and not be detected. However, we noted
no matters involving the internal control     This report is intended solely for the
and its operations that we consider to be     information of the District of Columbia
material weaknesses as defined above.         Workmen’s Compensation Act Special
                                              Fund’s management, U. S. Department of
REPORT ON COMPLIANCE                          Labor’s management, the Office of
WITH LAWS AND REGULATIONS                     Management and Budget, and the
                                              Congress. This report is not intended to be
The management of the Fund is                 and should not be used by anyone other
responsible for complying with laws and       than these specified parties.
regulations applicable to the Fund. As
part of obtaining reasonable assurance
about whether the Fund’s financial
statements are free of material               ELLIOT P. LEWIS
misstatement, we performed tests of its       Assistant Inspector General for Audit
compliance with certain provisions of laws
and regulations, noncompliance with           March 5, 2004
which could have a direct and material
effect on the determination of financial
statement amounts and certain other laws
and regulations specified in OMB Bulletin
No.
01-02.

We limited our tests of compliance to
these provisions and we did not test
compliance with all laws and regulations
applicable to the Fund.

The results of our tests of compliance with
laws and regulations described in the
preceding paragraph, disclosed no
instances of noncompliance that are
required to be reported under Government
Auditing Standards or OMB Bulletin No.
01-02.

Providing an opinion on compliance with
certain provisions of laws and regulations
was not an objective of our audit and,
accordingly, we do not express such an
opinion.

                ______

OIG Report No. 22-04-008-04-432                                               Page 1.3
                                           ANNUAL FINANCIAL STATEMENTS




                   U. S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION




   DISTRICT OF COLUMBIA WORKMEN’S
    COMPENSATION ACT SPECIAL FUND
         FINANCIAL STATEMENTS
       SEPTEMBER 30, 2003 AND 2002




                                  March 2004


              Office of Management, Administration and Planning
                       Division of Financial Management


OIG Report No. 22-04-008-04-432                               Page 2.1
                                                              ANNUAL FINANCIAL STATEMENTS

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                           TABLE OF CONTENTS




                                                                                          PAGE

ACRONYMS                                                                                            ii

MANAGEMENT DISCUSSION AND ANALYSIS

 Mission and Organizational Structure                                                      I    -   1
 Financial Highlights                                                                      I    -   1
 Performance Goals and Results                                                             I    -   1
 Limitations of the Financial Statements                                                   I    -   2

FINANCIAL STATEMENTS

 Balance Sheets                                                                           II    -   1
 Statements of Net Cost                                                                   II    -   2
 Statements of Changes in Net Position                                                    II    -   3
 Statements of Budgetary Resources                                                        II    -   4
 Statements of Financing                                                                  II    -   5

NOTES TO FINANCIAL STATEMENTS

 Note 1 - Summary of Significant Accounting Policies                                      III   -   1
 Note 2 - Funds with U.S. Treasury                                                        III   -   3
 Note 3 - Investments                                                                     III   -   3
 Note 4 - Accounts Receivable, Net                                                        III   -   4
 Note 5 – Liabilities – Assessment Overpayments by Carriers                               III   -   5
 Note 6 - Reconciliation to the Budget                                                    III   -   5




                                                        i

OIG Report No. 22-04-008-04-432                                                Page 2.2
                                                                ANNUAL FINANCIAL STATEMENTS

                                DISTRICT OF COLUMBIA WORKMEN’S
                                 COMPENSATION ACT SPECIAL FUND

                                                 ACRONYMS




CFO            Chief Financial Officer

DCCA           District of Columbia Workmen’s Compensation Act Special Fund

DLHWC          Division of Longshore and Harbor Workers’ Compensation

DOL            Department of Labor

ESA            Employment Standards Administration

FASAB          Federal Accounting Standards Advisory Board

FMFIA          Federal Managers' Financial Integrity Act

FUND           District of Columbia Workmen’s Compensation Act Special Fund

FY             Fiscal Year

JFMIP          Joint Financial Management Improvement Project

OCFO           Office of the Chief Financial Officer

OMB            Office of Management and Budget

OWCP           Office of Workers' Compensation Programs




                                                       ii

OIG Report No. 22-04-008-04-432                                                  Page 2.3
                                                  ANNUAL FINANCIAL STATEMENTS




                          U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                           District of Columbia Workmen’s
                           Compensation Act Special Fund




                                   SECTION I

                MANAGEMENT DISCUSSION
                                  AND ANALYSIS




                                     Fiscal Year 2003
                                   Financial Statements



OIG Report No. 22-04-008-04-432                                    Page 2.4
                                                                     ANNUAL FINANCIAL STATEMENTS

                                    DICTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2003


MISSION AND ORGANIZATIONAL STRUCTURE

The District of Columbia Workmen’s Compensation Act Special Fund is administered by the Division of Longshore and
Harbor Workers’ Compensation program (DLHWC). The mission of DLHWC is to effectively administer a program of
compensation and medical benefits to covered workers who are injured on the job or suffer from occupational disease.

The reporting entity is the District of Columbia Workmen’s Compensation Act Special Fund (Fund). Organizationally
the Fund is administered by the Employment Standards Administration (ESA), an agency within the United States
Department of Labor. Within ESA, the DLHWC has direct responsibility for all aspects of the administration of the
Fund. The Fund supports the program mission by providing compensation, and in certain cases, medical care payments
to District of Columbia employees for work related injuries or death. Effective July 26, 1982, the District of Columbia
became responsible for administration and operation of a separate special fund to cover post July 26, 1982, injury cases.

Administrative services for operating the Fund are provided by the ESA through direct Federal Appropriations.
Appropriated funding for administrative services is not reflected in the accompanying financial statements.

Additionally, the District of Columbia Workmen’s Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases
is paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment.
Appropriated funding for 10(h) is not reflected in the accompanying financial statements.

FINANCIAL HIGHLIGHTS

The majority of the revenue of the Fund is generated through annual recurring assessments paid by self-insured
employers and insurance carriers and totaled $9,509,942 in FY 2003. This compares with assessment revenue of
$11,558,372 for FY 2002. In addition, investment income for the Fund was $48,126 for FY 2003 compared to $85,005
for FY 2002. The average interest rate earned during FY 2003 was 1.21 percent compared to 2.11 percent for FY 2002.

The Fund’s costs remained relatively stable compared to FY 2002; $11,039,055 for FY 2003 compared to $10,962,217
for FY 2002.

PERFORMANCE GOALS AND RESULTS

The DCCA performance is included in the consolidated performance measures for the Employment Standards
Administration (ESA). ESA supports the Department of Labor’s Strategic Goal 2 - A Secure Workforce. This goal
broadly promotes the economic security of workers and families. In particular, the DLHWC program supports
Outcome Goal 2.2 – Protect Worker Benefits. The Department of Labor plays a large role in ensuring that worker
benefits are protected and that employers administer benefit programs in an appropriate way.

For a further discussion of performance goals see the Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements September 30, 2003 and 2002 discussion of performance in Section I Management Discussion and
Analysis.




                                                               I-1

OIG Report No. 22-04-008-04-432                                                                       Page 2.5
                                                                     ANNUAL FINANCIAL STATEMENTS

                                     DICTRICT OF COLUMBIA WORKMEN’S
                                      COMPENSATION ACT SPECIAL FUND

                                    OVERVIEW OF THE REPORTING ENTITY
                                           SEPTEMBER 30, 2003


LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations are part of the financial statements:

         -   The financial statements have been prepared to report the financial position and results of operations of the
              entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

         -   While the statements have been prepared from the books and records of the Fund in accordance with the
             formats prescribed by OMB, the statements are different from the financial reports used to monitor and
             control budgetary resources which are prepared from the same books and records.

         -   The statements should be read with the realization that they are for a component of a sovereign entity, that
             liabilities cannot be liquidated without the enactment of an appropriation, and that the payment of all
             liabilities other than for contracts can be abrogated by the sovereign entity.




                                                           I–2

OIG Report No. 22-04-008-04-432                                                                        Page 2.6
                                                   ANNUAL FINANCIAL STATEMENTS




                          U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                           District of Columbia Workmen’s
                           Compensation Act Special Fund




                                     SECTION II

                   FINANCIAL STATEMENTS




                                  Fiscal Year 2003 and 2002
                                      Financial Statements


OIG Report No. 22-04-008-04-432                                     Page 2.7
                                                                   ANNUAL FINANCIAL STATEMENTS

                                     DISTRICT OF COLUMBIA WORKMEN’S
                                      COMPENSATION ACT SPECIAL FUND

                                                BALANCE SHEETS
                                         As of September 30, 2003 and 2002


                                                                             2003             2002


ASSETS

  Intragovernmental assets
    Funds with U.S. Treasury (Note 2)                                   $        4,259    $      33,672
    Investments (Note 3)                                                     4,897,672        6,076,811
       Total intragovernmental assets                                        4,901,931        6,110,483

  Accounts receivable, net of allowance (Note 4)                              103,688         2,167,915

Total assets                                                            $    5,005,619    $   8,278,398


LIABILITIES AND NET POSITION

Liabilities
  Accrued benefits payable                                              $      175,279    $     154,153
  Deferred revenue                                                           2,217,721        2,823,996
  Other liabilities (Note 5)                                                 1,151,150        2,357,793

Total liabilities                                                            3,544,150        5,335,942

Net position
 Cumulative results of operations                                            1,461,469        2,942,456

Total liabilities and net position                                      $    5,005,619    $   8,278,398




The accompanying notes are an integral part of these statements.

                                                         II - 1

OIG Report No. 22-04-008-04-432                                                          Page 2.8
                                                                   ANNUAL FINANCIAL STATEMENTS

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                         STATEMENTS OF NET COST
                                For the Years Ended September 30, 2003 and 2002


                                                                          2003             2002


SPECIAL FUND NET COST OF OPERATIONS

With the public
 Second injury compensation, Section 8(f)                             $   10,192,692   $   10,052,306
 Wage increase compensation, Section 10(h)                                   665,698          704,011
 Compensation payment for self-insurer in default, Section 18(b)             180,665          205,900

Net cost of operations                                                $   11,039,055   $   10,962,217




The accompanying notes are an integral part of these statements.

                                                         II - 2

OIG Report No. 22-04-008-04-432                                                        Page 2.9
                                                                   ANNUAL FINANCIAL STATEMENTS

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                               STATEMENTS OF CHANGES IN NET POSITION
                                For the Years Ended September 30, 2003 and 2002


                                                                               2003             2002


CUMULATIVE RESULTS OF OPERATIONS

Cumulative results of operations, beginning                            $     2,942,456      $ 2,261,296

Budgetary financing sources:
 Non-exchange revenues:
   Investment interest                                                          48,126            85,005
   Assessments                                                               9,509,942        11,558,372

Total non-exchange revenues                                                  9,558,068        11,643,377

  Net cost of operations                                                   (11,039,055)     (10,962,217)

Net position, end of period                                            $     1,461,469      $ 2,942,456




The accompanying notes are an integral part of these statements.

                                                         II - 3

OIG Report No. 22-04-008-04-432                                                           Page 2.10
                                                                   ANNUAL FINANCIAL STATEMENTS

                                      DISTRICT OF COLUMBIA WORKMEN’S
                                       COMPENSATION ACT SPECIAL FUND

                                STATEMENTS OF BUDGETARY RESOURCES
                                For the Years Ended September 30, 2003 and 2002


                                                                             2003              2002


BUDGETARY RESOURCES (Note 6)

  Budgetary authority:
   Appropriations received                                              $ 9,639,458     $ 11,777,952
  Unobligated balance:
   Beginning of period                                                      5,946,032          5,323,322

  Total budgetary resources                                             $ 15,585,490    $ 17,101,274


STATUS OF BUDGETARY RESOURCES

  Obligations incurred (Note 6)
   Direct                                                               $ 10,862,471     $ 11,155,242
  Unobligated balances - available
   Other available                                                          4,723,019          5,946,032

  Total status of budgetary resources                                   $ 15,585,490     $ 17,101,274


RELATIONSHIP OF OBLIGATIONS TO OUTLAYS (Note 6)

  Obligated balance, net, beginning                                    $     154,153    $       120,582
  Obligated balance, net, ending
   Accounts payable                                                          175,278            154,153
  Outlays:
   Disbursements                                                           10,841,346         11,121,671

  Net outlays                                                          $ 10,841,346         $ 11,121,671




The accompanying notes are an integral part of these statements.

                                                         II - 4

OIG Report No. 22-04-008-04-432                                                         Page 2.11
                                                                   ANNUAL FINANCIAL STATEMENTS

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                        STATEMENTS OF FINANCING
                                For the Years Ended September 30, 2003 and 2002


                                                                            2003            2002


RESOURCES USED TO FINANCE ACTIVITIES

 Obligations incurred                                                   $ 10,862,471     $ 11,155,242
Total resources used to finance the net cost of operations                10,862,471       11,155,242

COMPONENTS OF THE NET COST OF OPERATIONS
 THAT WILL NOT REQUIRE OR GENERATE
 RESOURCES IN THE CURRENT PERIOD

   Benefit overpayments                                                     176,584         (193,025)
Total components of net cost of operations that will not
Require or generate resources in the current period                         176,584         (193,025)

Net cost of operations                                                  $ 11,039,055     $ 10,962,217




The accompanying notes are an integral part of these statements.

                                                         II – 5

OIG Report No. 22-04-008-04-432                                                        Page 2.12
                                                   ANNUAL FINANCIAL STATEMENTS




                          U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                           District of Columbia Workmen’s
                           Compensation Act Special Fund




                                    SECTION III

                              NOTES TO THE
                   FINANCIAL STATEMENTS




                                  Fiscal Year 2003 and 2002
                                     Financial Statements


OIG Report No. 22-04-008-04-432                                     Page 2.13
                                                                      ANNUAL FINANCIAL STATEMENTS

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2003 and 2002


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial
statements are set forth below.

A.       Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the District of Columbia Workmen’s Compensation Act Special Fund (Fund). The
Fund is administered by the Employment Standards Administration (ESA) which is an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation has direct
responsibility for administration of the Fund. The Fund offers compensation, and in certain cases, medical care
payments to District of Columbia employees for work related injuries or death. Effective July 26, 1982, the District of
Columbia Workmen’s Compensation Act was amended whereby the Mayor of the District of Columbia became
responsible for administration and operation of a separate special fund to cover post July 26, 1982, injury cases.

Additionally, the District of Columbia Workmen’s Compensation Act Section 10(h) provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases
is paid by Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements. Also, these financial statements do not
include the Special Fund administered by the Mayor of the District of Columbia for injury cases occurring after July 26,
1982.

B.       Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing and activities of the Fund, in accordance with accounting principles generally accepted in the
United States of America and the form and content requirements of OMB Bulletin 01-09. These financial statements
have been prepared from the books and records of the Fund. These financial statements are not intended to present,
and do not present, the full cost of the District of Columbia Workmen’s Compensation (DCCA) program
administered under the Longshore and Harbor Workers’ Compensation Act Program (Longshore Program). In
addition to the Fund costs presented in these statements, the full cost of the DCCA portion of the Longshore Program
would include certain direct costs of ESA in the form of salaries and expenses for administration of the Longshore
Program and allocated costs of ESA and other DOL agencies incurred in support of the Longshore Program. The
full cost of the DCCA portion of the Longshore Program is included in the Consolidated Financial Statements of the
U.S. Department of Labor.

Accounting principles generally accepted in the United States of America encompass both accrual and budgetary
transactions. Under accrual accounting, revenues are recognized when earned, and expenses are recognized when a
liability is incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use of
federal funds. These financial statements are different from the financial reports, also prepared for the Fund pursuant to
OMB directives, used to monitor the Fund’s use of budgetary resources.




                                                          III - 1

OIG Report No. 22-04-008-04-432                                                                        Page 2.14
                                                                     ANNUAL FINANCIAL STATEMENTS

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2003 and 2002


C.       Funds with U.S. Treasury

The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are processed by the
U.S. Treasury. The Funds with U.S. Treasury are trust funds that are available to pay current liabilities and finance
authorized purchase commitments.

D.       Investments

Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance claims
or otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these securities
because, in the majority of cases, they are held to maturity.

E.       Accounts Receivable, Net of Allowance

The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is estimated
based on past experience in the collection of the receivables and an analysis of the outstanding balances. Also included
as benefit overpayments receivable are Fund benefit overpayments made to individuals who were determined ineligible
to receive benefits.

F.       Accrued Benefits Payable

The District of Columbia Workmen’s Compensation Act Special Fund provides compensation and medical benefits for
work related injuries to employees of the District of Columbia. The Fund recognizes a liability for disability benefits
payable to the extent of unpaid benefits applicable to the current period.

G.       Assessment Overpayment by Carriers

Assessment overpayments are current liabilities and are to be refunded upon carrier request or applied to reduce future
carrier assessments.

H.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end. The
annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has been
deferred.

I.       Financing Sources Other Than Exchange Revenue

Non-exchange revenues arise from the Federal government’s power to demand payments from and receive donations
from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the public and
interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured employers.
The Fund also receives interest on Fund investments and on Federal funds in the possession of non-Federal entities.


                                                         III - 2

OIG Report No. 22-04-008-04-432                                                                       Page 2.15
                                                                       ANNUAL FINANCIAL STATEMENTS

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2003 and 2002


NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with the U.S. Treasury at September 30, 2003 and 2002 consisted of cash deposits of $4,259 and $33,672
respectively. There was $13 in cash deposits at September 30, 2003 and no cash deposits at September 30, 2002 being
held as security by authority of Section 32 of the Longshore and Harbor Workers' Compensation Act in the Funds with
the U.S. Treasury balance. Section 32 funds relate to the default of self-insured employers and are available for payment
of compensation and medical benefits to covered employees of the defaulted companies.


NOTE 3 - INVESTMENTS


                                                                       September 30, 2003
                                                                                                          Market
                                            Face Value             Discount         Net Value             Value
 Intragovernmental securities
    Marketable                             $ 4,903,000              $ (5,328)       $ 4,897,672         $ 4,897,672



                                                                       September 30, 2002
                                                                                                          Market
                                            Face Value             Discount         Net Value             Value
 Intragovernmental securities
    Marketable                             $ 6,097,000             $ (20,189)       $ 6,076,811         $ 6,076,811




Investments of $50,000 and $0 for 2003 and 2002 are being held as security by authority of Section 32 of the Longshore
and Harbor Workers' Compensation. Section 32 investments relate to the default of self-insured employers and are
restricted. These investments are available for payment of compensation and medical benefits to covered employees of
the defaulted companies. Investments at September 30, 2003 and 2002 consist of short-term U.S. Treasury Bills and are
stated at amortized cost which approximates market. Investments at September 30, 2003, bear interest rates varying
from 0.90% to 0.96% compared to rates varying from 1.58% to 1.66% for 2002. Interest rates on securities bought and
sold during fiscal year 2003 ranged from 0.83% to 1.85% compared to 1.57% to 3.42% for fiscal year 2002.




                                                         III - 3

OIG Report No. 22-04-008-04-432                                                                       Page 2.16
                                                                          ANNUAL FINANCIAL STATEMENTS

                                     DISTRICT OF COLUMBIA WORKMEN’S
                                      COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For the Years Ended September 30, 2003 and 2002


NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2003 and 2002 consisted of the following:

                                                                                2003                        2002

 Entity Assets
        Benefit overpayments                                                   $      23,488            $     193,025
        Assessments receivable                                                        91,939                1,979,641
        Less: allowance for doubtful accounts                                       (11,739)                   (4,751)

                Total accounts receivable, net                                 $ 103,688                $ 2,167,915

Benefit overpayments arise from accounts receivable from overpayments to beneficiaries. These overpayments arise
primarily from amended compensation orders and corrections of payment computations. These receivables are being
primarily recovered by partial and total withholding of benefit payments.

Assessments receivable represent the unpaid annual assessments from the current and prior years. In addition, due to
reporting errors by two of the participating insurance carriers, the assessments for calendar year 2002 were incorrectly
allocated among the carriers. The carriers causing this error were over billed by $1,963,734, and the remaining carriers
were under billed collectively by the same amount. Since the carriers’ error in reporting were discovered after the
assessment process for calendar year 2002 was closed, this allocation error was corrected in the calendar year 2003
assessment process.

Changes in the allowance for doubtful accounts during 2003 and 2002 consisted of the following:

                                                                   September 30, 2003
                                Allowance           Write-              Revenue              Bad-            Allowance
                                 9-30-02             offs              Adjustment            Debt             9-30-03
 Entity assets
  Benefit overpayments           $ (3,856)         $      -            $        -        $ (3,191)           $ (7,047)
  Assessment receivable              (895)           41,564              (41,505)          (3,856)              (4,692)
                                 $ (4,751)         $ 41,564            $ (41,505)        $ (7,047)           $ (11,739)


                                                                   September 30, 2002
                                Allowance           Write-              Revenue              Bad-            Allowance
                                 9-30-01             offs              Adjustment            Debt             9-30-02
 Entity assets
  Benefit overpayments           $     (62)       $ (3,794)           $         -        $          -        $ (3,856)
  Assessment receivable            (10,420)           3,794                 5,731                   -            (895)
                                 $ (10,482)       $       -            $    5,731        $          -        $ (4,751)


                                                         III - 4

OIG Report No. 22-04-008-04-432                                                                             Page 2.17
                                                                       ANNUAL FINANCIAL STATEMENTS

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2003 and 2002


NOTE 5 – OTHER LIABILITIES

Other liabilities at September 30, 2003 and 2002 consisted of the following current liabilities:

                                                                             2003                         2002

Other liabilities
  Assessment overpayments by carriers                                    $ 1,101,137                   $ 2,357,793
  Defaulted employer liability
    Held in investments                                                          50,000                          -
    Held in cash                                                                     13                          -
                                                                                 50,013                          -

  Total other liabilities                                               $ 1,151,150                    $ 2,357,793

Assessment overpayments are to be refunded upon request or applied to reduce future assessments.

Defaulted employer liability relates to the funds and investments held by the District of Columbia Special Fund which
are being held as security by authority of Section 32 of the Act. These funds and investments are available for
compensation and medical benefits to covered employees of the defaulted companies. Management estimates that these
funds and investments held will be sufficient to cover the future benefits associated with the covered employees.

Assessment overpayments by carriers represent overpayments received from carriers on annual assessments from the
current and prior years. These overpayments result from carrier reporting errors, adjustments to the assessment and
mergers and consolidations among the assessed carriers. In FY 2002 the overpayment amount was $2,357,793. The
majority of this overpayment amount resulted from reporting errors by two of the participating insurance carriers,
relating to assessments for calendar year 2002 that were incorrectly allocated among the carriers. The carriers causing
this error were over billed by $1,963,734, and the remaining carriers were under billed collectively by the same amount.
 Since the carriers’ error in reporting were discovered after the assessment process for calendar year 2002 was closed,
this allocation error was corrected in the calendar year 2003 assessment process.



NOTE 6 - RECONCILIATION TO THE BUDGET

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of Budgetary
Resources to amounts included in the Budget of the United States Government for the years ended September 30, 2003
and 2002 are shown below:
                                                                   September 30, 2003

                                                     Budgetary             Obligations
                                                     Resources              Incurred               Outlays
(Dollars in Millions)
Statement of Budgetary Resources                      $      16              $       11            $      11

Budget of the United States Government                $      16              $       11            $      11


                                                          III – 5

OIG Report No. 22-04-008-04-432                                                                         Page 2.18
                                                            ANNUAL FINANCIAL STATEMENTS



                               DISTRICT OF COLUMBIA WORKMEN’S
                                COMPENSATION ACT SPECIAL FUND

                              NOTES TO THE FINANCIAL STATEMENTS
                             For the Years Ended September 30, 2003 and 2002


NOTE 6 - RECONCILIATION TO THE BUDGET - Continued

                                                            September 30, 2002

                                             Budgetary         Obligations
                                             Resources          Incurred         Outlays
(Dollars in Millions)
Statement of Budgetary Resources              $     17           $     11        $    11

Budget of the United States Government        $     17           $     11        $    11




                                                  III –6

OIG Report No. 22-04-008-04-432                                                      Page 2.19
